U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 9, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: United States Fish and Wildlife Service, et al. v. Sierra Club, Inc.,
No. 19-547
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was granted on March 2,
2020. This Court previously extended petitioners’ time to file their opening brief and the joint
appendix to and including May 18, 2020, and the Court extended respondent’s time to file its brief
to and including July 20, 2020. We respectfully request that petitioners’ time to file their opening
brief and the joint appendix be further extended to and including Thursday, May 21, 2020. We
further request that respondent’s time to file its brief be extended to and including Monday, July
27, 2020. Under this Court’s rules, petitioners’ reply brief would be due 30 days later (or at the
time specified in Rule 25.3).
This slight change to the briefing schedule is necessary because, in light of COVID-19,
this Office is endeavoring to minimize risks to the health and safety of our personnel responsible
for the filing and service of paper copies of Court documents by reducing the number of days each
week on which the filing and service of such documents are necessary and on which those
personnel must report to work in person.
Counsel for both parties consents to these extensions of time.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0547
UNITED STATES FISH AND WILDLIFE SERVICE,
ET AL.
SIERRA CLUB, INC.

SANJAY NARAYAN
SIERRA CLUB ENVIRONMENTAL LAW
PROGRAM
2101 WEBSTER STREET
SUITE 1300
OAKLAND, CA 94612
415-977-5769
SANJAY.NARAYAN@SIERRACLUB.ORG

